Semiannual Report To
The Congress




October 1, 2005 – March 31, 2006




Office of
Inspector General
Department of the Treasury
                                    HIGHLIGHTS IN BRIEF
During this semiannual reporting period, our Office of Audit issued 31 audit, attestation, and
evaluation reports which identified, in total, $29.4 million in monetary benefits. Work by our
Office of Investigations resulted in 2 convictions by plea agreement, 1 federal indictment, 1 state
charge, and 10 referrals accepted for prosecution. Investigative activities also resulted in
approximately $583,000 in court-ordered fines, restitution, and civil settlements, as well as
5 personnel actions and 1 debarment. Some of our significant results for this period are described
below:

   •   In an October 2005 memorandum to the Secretary of the Treasury, the Inspector General
       identified the following as the most serious management and performance challenges
       facing the Department, all repeat challenges: (1) corporate management, (2) management
       of capital investments, (3) information security, (4) linking resources to results, and
       (5) anti-money laundering and terrorist financing/Bank Secrecy Act enforcement. Based on
       actions taken, a previous challenge—management of classified and other sensitive
       information—was removed, but still requires continued attention.

   •   An Independent Public Accountant, working under our supervision, issued an unqualified
       opinion on the Department’s fiscal year 2005 consolidated financial statements. The audit
       identified two reportable conditions, both repeat, related to: (1) financial management and
       reporting at the Internal Revenue Service, a material weakness, and (2) electronic data
       processing controls and information security programs over financial systems. The audit
       also found that Treasury was not in substantial compliance with the Federal Financial
       Management Improvement Act, a longstanding condition attributable to deficiencies at the
       Internal Revenue Service.

   •   We determined that Treasury’s poor planning and execution of the Treasury
       Communications Enterprise (TCE) procurement led to delays and increased costs.
       Specifically, we found that Treasury’s consideration of General Service Administration
       contract vehicles, both at the outset and following a successful bid protest of the TCE
       contract award, was incomplete and that the business case documentation provided by
       Treasury was deficient. The contract files for the TCE project lacked adequate
       documentation of senior management approval of the TCE acquisition plan and failed to
       adequately detail how Treasury had arrived at its $1 billion cost estimate for TCE.

   •   As part of an executive branch initiative to combat Federal Employees’ Compensation Act
       (FECA) fraud, the Offices of Investigations and Audit launched a proactive project to
       identify instances of fraud within the Department’s program. During this reporting period, a
       former Treasury employee was indicted and subsequently arrested on three felony offenses
       related to over $270,000 in fraudulent FECA claims. This case is currently pending further
       judicial action.

   •   At the request of the Secretary of the Treasury, the Treasury OIG conducted an
       investigation into whether he had a conflict of interest by owning approximately
       $10.8 million worth of government-sponsored enterprises (GSE) debt instruments.
       The investigation determined that prior to being sworn in as Secretary of the
       Treasury, the Secretary purchased through his investment broker what he believed
       to be U.S. Treasury securities, when in fact he had purchased GSEs. No evidence
       was developed during the investigation which suggested that the Secretary
       knowingly held the GSE securities.
A MESSAGE FROM THE INSPECTOR GENERAL

I am pleased to present the Department of the Treasury (Treasury), Office of
Inspector General (OIG) Semiannual Report summarizing the activities of our
office for the 6-month period from October 1, 2005, through March 31,
2006.

This Semiannual Report is being dedicated to the memory of William H.
Pugh, our Deputy Assistant Inspector General for Financial Management and
Information Technology Audit, who I am sad to report passed away after a
brief illness in February 2006. As a senior executive, Mr. Pugh led our
financial and information technology audit work for the past 10 years. It is a
fitting tribute that he supervised much of the audit work that is highlighted in
this Report.

Among his many accomplishments, Mr. Pugh, who had over 33 years of
diversified audit experience with both the Federal Government and private
industry, worked tirelessly with Treasury management to enable the
Department to achieve its first ever unqualified audit opinion on its fiscal
year 2000 financial statements, and the unprecedented acceleration of the
Department’s financial reporting 2 years later. Mr. Pugh also served on a
number of interagency and professional task forces that addressed
accounting and auditing issues, and promoted excellence in financial
management government-wide.

In recognition of his outstanding service to government, including a
distinguished 30-year career as an active duty and reserve Army Officer,
Secretary Snow awarded Treasury’s Distinguished Service Medal
posthumously to Mr. Pugh. The Medal was presented to Mr. Pugh’s wife at
his funeral service. The Secretary’s citation for this high honor is included on
the inside back cover.

Mr. Pugh was a valued colleague and friend and will be sorely missed by all
of us here at the Treasury OIG.




                                        Harold Damelin
                                        Inspector General
This Page Intentionally Left Blank
                                      T ABLE O F C ONTENTS


Highlights in Brief

A Message From The Inspector General

Overview of the OIG and the Treasury..............................................................                1

        OIG Values ..........................................................................................     2
        About Treasury ....................................................................................       2

Significant Audits and Evaluations ...................................................................            5

        Management and Performance Challenges Facing Treasury……………………                                             5
        Financial Management ...........................................................................          7
        Information Technology .........................................................................         10
        Programs and Operations .......................................................................          12

Significant Investigations ................................................................................      16

Other OIG Accomplishments and Activities .......................................................                 21

Statistical Summary .......................................................................................      24

        Summary of OIG Activity.......................................................................           24
        Significant Unimplemented Recommendations ..........................................                     26
        Summary of Instances Where Information Was Refused ............................                          28
        Listing of Audit and Evaluation Reports Issued .........................................                 29
        Audit Reports Issued with Questioned Costs ............................................                  31
        Audit Reports Issued with Recommendations That
           Funds be Put to Better Use ................................................................           32
        Previously Issued Audit Reports Pending Management Decisions ................                            32
        Significant Revised Management Decisions ..............................................                  32
        Significant Disagreed Management Decisions ...........................................                   33
        References to the Inspector General Act as Amended ...............................                       34

Acronyms .....................................................................................................   35
This Page Intentionally Left Blank
               O VERVIEW OF THE OIG AND THE T REASURY



T      he Department of the Treasury’s (Treasury) Office of Inspector General (OIG) was
       established pursuant to the 1988 amendment to the Inspector General Act of 1978,
5 United States Code (U.S.C.) Appendix 3. The OIG is headed by an Inspector General (IG)
who is appointed by the President of the United States, with the advice and consent of the
United States Senate. Serving with the IG in the immediate office is a Deputy Inspector
General. OIG performs independent and objective reviews of Treasury programs and
operations, except for those of the Internal Revenue Service (IRS), and keeps the Secretary of
the Treasury and Congress fully informed of problems, deficiencies, and the need for
corrective action. The Treasury Inspector General for Tax Administration (TIGTA) performs
audit and investigative oversight related to IRS.

OIG is organized into four divisions: (1) Office of Audit, (2) Office of Investigations, (3) Office
of Counsel, and (4) Office of Management.

       The Office of Audit (OA) performs audits and evaluations. The Assistant Inspector
       General for Audit has two deputies. One deputy is primarily responsible for performance
       audits while the other deputy is primarily responsible for financial management and
       information technology audits. OA staff is located in Washington, DC, and Boston,
       Massachusetts.

       The Office of Investigations (OI) performs investigations and conducts proactive
       initiatives that are aimed at detecting and preventing fraud, waste, and abuse in
       Treasury programs and operations. OI also manages the Treasury OIG Hotline System
       to facilitate the reporting of allegations involving the programs and activities under the
       auspices of the Department. The Assistant Inspector General for Investigations is
       responsible for the supervision and conduct of all investigations relating to the
       Department’s programs and operations and performs integrity oversight reviews within
       select Treasury bureaus. OI is located in Washington, DC.

       The Office of Counsel to the Inspector General (1) processes all Freedom of Information
       Act/Privacy Act requests and administrative appeals; (2) processes all discovery
       requests; (3) represents OIG in administrative Equal Employment Opportunity and Merit
       Systems Protection Board proceedings; (4) conducts ethics training, provides ethics
       advice, and ensures compliance with financial disclosure requirements; (5) reviews
       proposed legislation and regulations; (6) reviews and issues IG subpoenas; (7) reviews
       and responds to all Giglio requests for information about Treasury personnel who may
       testify in trials; and (8) provides advice on procurement, personnel, and other
       management matters and on pending audits and investigations.

       The Office of Management provides a range of services designed to maintain the OIG
       administrative infrastructure. These services include: asset management; budget
       formulation and execution; financial management; information technology; and office
       wide policy preparation, planning, emergency preparedness, and reporting for OIG. The
       Assistant Inspector General for Management is in charge of these functions.



                Treasury Office of Inspector General Semiannual Report – March 2006                   1
             O VERVIEW OF THE OIG AND THE T REASURY

     As of March 31, 2006, OIG had 115 full-time staff. OIG’s fiscal year 2006
     appropriation is $16.8 million.

OIG Values
     The values of OIG include producing high-quality products that are accurate, timely,
     relevant, and responsive to the needs of decision makers. OIG strives to ensure
     integrity, independence, objectivity, proficiency, and due care in performing its work.
     OIG promotes teamwork and open communication among its organizational
     components and encourages and rewards its workforce for innovation, creativity,
     dedication, and productivity. Finally, OIG fosters an environment of respect, equal
     opportunity, and diversity among its workforce.

About Treasury
     The mission of Treasury is to promote the conditions for prosperity and stability in the
     United States and encourage prosperity and stability in the rest of the world.
     Organized into bureaus and offices, Treasury encompasses a wide range of
     programmatic and operational activities. Currently, Treasury consists of approximately
     112,500 full-time equivalent (FTE) staff. Of these FTEs, approximately 97,500 staff
     IRS and the other 15,000 staff Treasury’s other bureaus and offices.

Treasury Bureaus

     Alcohol and Tobacco Tax and Trade Bureau (TTB) is responsible for enforcing and
     administering laws covering the production, use, and distribution of alcohol and
     tobacco products. It collects alcohol, tobacco, firearms, and ammunition excise taxes
     totaling approximately $17 billion annually.

     Bureau of Engraving and Printing (BEP) designs and manufactures U.S. currency,
     securities, and other official certificates and awards.

     Bureau of the Public Debt (BPD) borrows the money needed to operate the federal
     government. It administers the public debt by issuing and servicing U.S. Treasury
     marketable, savings, and special securities.

     Financial Crimes Enforcement Network (FinCEN) supports law enforcement
     investigative efforts and fosters interagency and global cooperation against domestic
     and international financial crimes. It also provides U.S. policy makers with strategic
     analyses of domestic and worldwide trends and patterns.

     Financial Management Service (FMS) receives and disburses all public monies,
     maintains government accounts, and prepares daily and monthly reports on the status
     of U.S. government finances.



2            Treasury Office of Inspector General Semiannual Report – March 2006
              O VERVIEW OF THE OIG AND THE T REASURY

      Internal Revenue Service (IRS) is the nation's tax collection agency and administers the
      Internal Revenue Code.

      U.S. Mint (Mint) designs and manufactures domestic, bullion, and foreign coins, as well
      as commemorative medals and other numismatic items. The Mint also distributes U.S.
      coins to the Federal Reserve Banks and maintains physical custody and protection of
      the nation's gold and silver assets.

      Office of the Comptroller of the Currency (OCC) charters, regulates, and supervises
      national banks to ensure a safe, sound, and competitive banking system that supports
      the citizens, communities, and economy of the United States.

      Office of Thrift Supervision (OTS) regulates all federal and many state-chartered thrift
      institutions, which include savings banks and savings and loan associations.

Treasury Offices

      Departmental Offices (DO) formulates policy and manages Treasury operations.

      Office of Terrorism and Financial Intelligence (TFI) marshals the department's
      intelligence and enforcement functions with the twin aims of safeguarding the financial
      system against illicit use and combating rogue nations, terrorist facilitators, money
      launderers, drug kingpins, and other national security threats.

      •   TFI is headed by an Under Secretary and includes two major components: the
          Office of Terrorist Financing and Financial Crime (TFFC), responsible for TFI's
          enforcement functions, and the Office of Intelligence and Analysis (OIA),
          responsible for TFI's intelligence functions. An Assistant Secretary oversees each of
          these offices. TFFC is responsible for integrating FinCEN, the Office of Foreign
          Assets Control (OFAC), and the Treasury Executive Office of Asset Forfeiture
          (TEOAF). TFFC also works in close partnership with IRS Criminal Investigation
          (IRS-CI) to enforce laws against terrorist financing and money laundering, including
          the Bank Secrecy Act (BSA). OIA supports the formulation of policy and execution
          of Treasury authorities by providing (1) analysis and intelligence production on
          financial and other support networks for terrorist groups, proliferators, and other
          key national security threats and (2) intelligence support on the full range of
          economic, political, and security issues. OIA is a member of the United States
          Intelligence Community.

      •   OFAC administers and enforces economic and trade sanctions based on U.S. foreign
          policy and national security goals against targeted foreign countries, terrorists,
          international narcotics traffickers, and those engaged in activities related to the
          proliferation of weapons of mass destruction. OFAC acts under presidential wartime
          and national emergency powers, as well as authority granted by specific legislation,
          to impose controls on transactions and freeze foreign assets under U.S. jurisdiction.



              Treasury Office of Inspector General Semiannual Report – March 2006                3
            O VERVIEW OF THE OIG AND THE T REASURY

    •   TEOAF administers the Treasury Forfeiture Fund (TFF). TFF is the receipt account
        for the deposit of nontax forfeitures made by IRS-CI and the Department of
        Homeland Security, including U.S. Immigration and Customs Enforcement, U.S.
        Customs and Border Protection, U.S. Secret Service, and U.S. Coast Guard.
        Funding for participating law enforcement agencies is provided through TFF to
        enhance their capabilities to conduct successful investigations and forfeitures.
        TFF’s mission is to affirmatively influence the consistent and strategic use of asset
        forfeiture by participating agencies to disrupt and dismantle criminal enterprises.

    Office of International Affairs advises on and assists in the formulation and execution
    of U.S. international economic and financial policy. Responsibilities of the Office of
    International Affairs include developing policies and guidance in the areas of
    international financial, economic, monetary, trade, investment, bilateral aid,
    environment, debt, development, and energy programs, including U.S. participation in
    international financial institutions.

    Exchange Stabilization Fund (ESF) is used to purchase or sell foreign currencies, hold
    U.S. foreign exchange and Special Drawing Rights assets, and provide financing to
    foreign governments. All ESF operations require the explicit authorization of the
    Secretary of the Treasury.

    Community Development Financial Institutions Fund (CDFI Fund) expands the
    availability of credit, investment capital, and financial services in distressed urban and
    rural communities.

    Federal Financing Bank (FFB) provides federal and federally assisted borrowing,
    primarily to finance direct agency activities such as construction of federal buildings by
    the General Services Administration (GSA) and meeting the financing requirements of
    the U.S. Postal Service.

    Office of DC Pensions makes federal benefit payments associated with the District of
    Columbia (DC) Retirement Programs for police officers, firefighters, teachers, and
    judges.

    Air Transportation Stabilization Board issues federal credit instruments (loan
    guarantees) to assist air carriers that suffered losses as a result of the terrorist attacks
    on the United States that occurred on September 11, 2001.




4           Treasury Office of Inspector General Semiannual Report – March 2006
               S IGNIFICANT A UDITS AND E VALUATIONS

MANAGEMENT AND PERFORMANCE CHALLENGES FACING TREASURY

In accordance with the Reports Consolidation Act of 2000, the IG annually provides the
Secretary of the Treasury with OIG’s perspective on the most serious management and
performance challenges facing the Department. Among other things, the Secretary must
include these challenges in the Department’s annual Performance and Accountability
Report. In 2004, we identified six challenges that we believed seriously impeded the
Department’s ability to conduct its program responsibilities and ensure the integrity of its
operations. In October 2005, we reported five challenges to the Secretary, all of which
were repeat challenges. We removed one challenge previously reported—Management of
Classified and Other Sensitive Information—based on the Department’s actions to
strengthen policies, controls, and training on the proper handling of sensitive information.
However, we pointed out that continued management attention to this area is needed. We
also reported that while some progress on the other five challenges has been made, we
continued to believe that they represent significant risks to the Department.

The five challenges reported in October 2005 are summarized below:

   •   Corporate Management With nine bureaus and many program offices, Treasury
       is a highly decentralized organization. Treasury needs to provide effective
       corporate leadership in resolving serious deficiencies at the bureau level that
       adversely affect the performance of Treasury as a whole. In particular, Treasury
       needs to assert strong leadership and supervision over IRS to resolve
       longstanding material weaknesses and system deficiencies that continue to
       inhibit IRS’s ability to produce the timely and reliable information necessary to
       effectively manage IRS operations. Treasury also needs to ensure consistency,
       cohesiveness, and economy among all bureaus in achieving Treasury’s goals and
       objectives. Specific challenges in this area include establishing clear lines of
       accountability between corporate- and bureau-level management, providing
       enterprise solutions for core business activities, ensuring consistent application
       of accounting principles, and providing effective oversight of information
       technology investments and security. We reported that there has been little
       progress in corporate management during the past year, due in part to the fact
       that several key executive positions were vacant for a significant part of the
       year and were only recently filled.

   •   Management of Capital Investments Treasury needs to better manage large,
       multiyear acquisitions of systems and other capital investments. For example,
       the Department incurred significant cost escalations in its HR Connect system
       and the Treasury Building and Annex Repair and Restoration project. Another
       current major capital investment activity is the Department’s transition from the
       Treasury Communication System to the Treasury Communications Enterprise
       (TCE). The transition to TCE has been delayed due in part to a successful
       protest of the bid award and the Department’s changing course on how it would



             Treasury Office of Inspector General Semiannual Report – March 2006           5
                S IGNIFICANT A UDITS AND E VALUATIONS

        address the bid protest decision. During this semiannual reporting period, we
        completed an audit of TCE and found that this major acquisition was poorly
        planned, executed, and documented. A more detailed description of our audit is
        on page 12.

    •   Information Security The Department faces serious challenges in bringing its
        systems into compliance with information technology security policies,
        procedures, standards, and guidelines. A core issue continues to be the need to
        establish and maintain a system inventory. In fiscal year 2004, we reported that
        Treasury’s system inventory was not accurate, complete, or consistently
        reported. Treasury is still in the process of gathering data to develop its system
        inventory. Deficiencies also exist in certification and accreditation, contractor
        oversight, plans of action and milestones, tracking corrective actions, training,
        and security configuration policies. Our 2005 independent evaluation pursuant
        to the Federal Information Security Management Act found that while the
        Department made some progress in addressing information security issues
        during the past year, major improvements are still needed. These matters are
        discussed in more detail on page 10.

    •   Linking Resources to Results The Department generally has not developed and
        incorporated managerial cost accounting into its business activities; therefore,
        financial resources cannot be adequately linked to operating results. This inhibits
        comprehensive program performance reporting and meaningful cost-benefit
        analyses of the Department’s programs and operations. It could also result in
        inaccurate or incomplete cost information in evaluating competitive sourcing
        activities. The Department has made progress during the past year by
        introducing more efficiency measures in its performance reporting; however, it
        needs to make underlying systemic changes to integrate cost accounting with
        financial and performance reporting.

    •   Anti-Money Laundering and Terrorist Financing/Bank Secrecy Act (BSA)
        Enforcement FinCEN is responsible for administering BSA, but largely relies on
        other Treasury and non-Treasury regulatory agencies to enforce the
        requirements of the act, including the enhanced terrorist financing provisions in
        the USA PATRIOT Act. Past audits and a series of congressional hearings have
        revealed regulatory gaps in either the detection of violations of BSA or its timely
        enforcement. The Department continued efforts to strengthen BSA
        administration and has taken significant enforcement actions against several
        financial institutions. This management challenge has been and remains a major
        focus of our audit program, and we had audit work ongoing at TFI, FinCEN,
        OFAC, OCC, and OTS at the end of this semiannual reporting period.




6             Treasury Office of Inspector General Semiannual Report – March 2006
               S IGNIFICANT A UDITS AND E VALUATIONS

In addition to our audits and evaluations focused on these management challenges,
where appropriate we are working with Department management in an advisory
capacity to assist in its efforts to address these challenges.

FINANCIAL MANAGEMENT

Financial Audits

   Consolidated Financial Statements

   An Independent Public Accountant (IPA), working under OIG supervision, issued an
   unqualified opinion on Treasury’s fiscal years 2005 and 2004 consolidated financial
   statements. The audit identified two reportable conditions, related to (1) financial
   management and reporting at IRS and (2) electronic data processing controls and
   information security programs over financial systems. The reportable condition related
   to financial management and reporting at IRS is considered a material weakness. The
   IPA also reported that the Department’s financial management systems are not in
   substantial compliance with the Federal Financial Management Improvement Act of
   1996 (FFMIA). In addition, the audit identified two other instances of reportable
   noncompliance with laws and regulations. (OIG-06-007)

   Also in connection with its audit of Treasury’s consolidated financial statements, the
   IPA issued a management letter that identified the following other matters, not required
   to be included in its report on the financial statements, where Treasury could take
   action to improve the quality and efficiency of financial reporting: (1) succession
   planning must be implemented immediately; (2) financial reporting standards for
   Department component entities should be consistent; (3) the ESF budgetary accounting
   methodology should be clarified; (4) annual reconciliation procedures to the President’s
   budget should be improved; (5) a formal process is needed to monitor the use of
   sensitive system software utilities; (6) access controls should be strengthened for the
   Financial Analysis and Reporting System, which includes the Treasury Information
   Executive Repository (TIER), the financial management system that collects monthly
   bureau and program office financial data, and CFO Vision, the financial management
   system that produces the consolidated financial statements; (7) configuration
   management processes over CFO Vision need improvement; (8) backup tapes for the
   TIER system and CFO Vision Production Servers should be protected; and (9) formal
   continuity of operations plan and disaster recovery procedures for TIER and CFO Vision
   should be established. (OIG-06-021)




             Treasury Office of Inspector General Semiannual Report – March 2006            7
                      S IGNIFICANT A UDITS AND E VALUATIONS


      Federal Financial Management Improvement Act of 1996

      The following instances of FFMIA noncompliance were reported in connection with the
      audit of the Department’s fiscal year 2005 consolidated financial statements. All
      instances relate to IRS. The current status of these FFMIA noncompliances, including
      progress in implementing remediation plans, will be evaluated as part of the audit of
      Treasury’s fiscal year 2006 financial statements.


                                                                                            Fiscal Year
                                                                                          First Reported       Type of
Entity                                     Condition
                                                                                            for FFMIA       Noncompliance
                                                                                             Purposes
         Financial management systems do not provide timely and reliable
         information for financial reporting and preparation of financial statements.
                                                                                                            Federal Financial
         IRS had to rely extensively on resource-intensive compensating procedures
                                                                                                              Management
IRS      to generate reliable financial statements. IRS also lacks a subsidiary ledger        1997
                                                                                                               Systems
         for its unpaid assessments and lacks an effective audit trail from its general
                                                                                                             Requirements
         ledger back to subsidiary detailed records and transaction source
         documents for material balances such as tax revenues and tax refunds.
         Deficiencies identified in information security controls, resulting in                             Federal Financial
         increased risk of unauthorized individuals being allowed to access, alter, or                        Management
IRS                                                                                           1997             Systems
         abuse proprietary IRS programs and electronic data and taxpayer
         information.                                                                                        Requirements

         Material weaknesses related to controls over unpaid tax assessments and                           Federal Accounting
IRS                                                                                           1997             Standards
         tax revenue and refunds.
         Financial management system cannot routinely accumulate and report the                            Federal Accounting
IRS                                                                                           1998
         full costs of its activities.                                                                         Standards
         General ledger system is not supported by adequate audit trails and is not
                                                                                                           Standard General
IRS      integrated with its supporting records for material balances such as tax             1997
                                                                                                                Ledger
         revenues and tax refunds.




8                  Treasury Office of Inspector General Semiannual Report – March 2006
                          S IGNIFICANT A UDITS AND E VALUATIONS


Other Financial Audits

The Chief Financial Officers (CFO) Act, as amended by the Government Management
Reform Act of 1994 (GMRA), requires annual financial statement audits of Treasury and
Office of Management and Budget (OMB)-designated entities. In this regard, OMB has
designated IRS for annual financial statement audits. The financial statements of certain
other Treasury component entities are audited pursuant to other requirements, or due to
their materiality to Treasury’s consolidated financial statements. The following table shows
audit results for fiscal years 2005 and 2004.



                                    Treasury Audited Financial Statements and Related Audits

                                               Fiscal Year 2005 Audit Results             Fiscal Year 2004 Audit Results
                                                                       Other                                       Other
                                                         Material                                Material
Entity                                      Opinion                  Reportable   Opinion                        Reportable
                                                         Weakness                                Weakness
                                                                     Conditions                                  Conditions
GMRA/CFO Act Requirements
  Treasury Department                         UQ              1          1           UQ              1               1
  IRS (A)                                     UQ              4          2           UQ              4               2
Other Required Audits
  BEP                                         UQ              0          1           UQ              0               0

  CDFI Fund                                   UQ              0          0           UQ              0               0

  Office of DC Pensions                       UQ              0          0           UQ              0               0

                                              UQ              0          0           UQ              0               0
  ESF

  FFB                                         UQ              0          0           UQ              1               0

 OCC                                           UQ             0          0           UQ              0               1
 OTS                                           UQ             0          0           UQ              0               0
 TFF                                           UQ             1          1           UQ              0               1
 Mint
    Financial Statements                       UQ             (B)        (B)         UQ              0               0
    Custodial Gold and
                                               UQ             0          0           UQ              0               0
       Silver Reserves
Material to Treasury Department Financial Statements
 BPD
    Schedule of Federal Debt (A)               UQ             0          0           UQ              0               0
    Government Trust Funds                    UQ              0          0           UQ              0               1
  FMS
    Treasury Managed Accounts                 UQ              0          0           UQ              0               0
    Operating Cash of the Federal
                                              UQ              0          1           UQ              0               1
      Government
Other
      FinCEN                                  UQ              1          0           N/A            N/A             N/A
UQ    Unqualified opinion
N/A   Bureau was not audited before fiscal year 2005
(A)   Audited by the U.S. Government Accountability Office.
(B)   Audit was in progress as of March 31, 2006.




                     Treasury Office of Inspector General Semiannual Report – March 2006                                      9
                  S IGNIFICANT A UDITS AND E VALUATIONS

     The fiscal year 2005 IPA audits of Treasury entities, performed under our supervision,
     noted reportable conditions related to (1) effectiveness of computer controls at FMS
     pertaining to the Operating Cash of the Federal Government (OIG-06-009), (2) the
     organizational structure of TFF not providing for effective CFO function and
     responsibilities (OIG-06-023), (3) accounting for indirect overhead expenses of the
     national seized property contractor by TFF (OIG-06-023), (4) BEP’s financial reporting
     of a depository account for public sales (OIG-06-018), and (5) FinCEN’s accounting for
     internal use software and accrued liabilities (OIG-06-027). The reportable conditions
     related to TFF’s organizational structure and FinCEN’s accounting for internal use
     software and accrued liabilities are considered material weaknesses. We also issued
     management letters in connection with the IPA fiscal year 2005 audits of the FFB
     (OIG-06-020), TFF (OIG-06-024), FMS’ Treasury Managed Accounts (OIG-06-006), and
     FMS’ Schedule of the Non-Entity Government-Wide Cash (OIG-06-014).

     Attestation Engagement

     An IPA, working under OIG supervision, issued an
     unqualified opinion that the assertions pertaining to      The attestation examination did not
     the BPD Trust Fund Management Branch (TFMB)                identify any deficiencies in internal
     Schedules for Selected Trust Funds for the Period          control or instances of reportable
     October 1, 2004, to September 30, 2005, are fairly         noncompliance with laws and
     stated. These schedules relate to the functions            regulations.
     performed by TFMB as custodian of the following
     monies and investments: Federal Supplementary Medical Insurance Trust Fund, Federal
     Hospital Insurance Trust Fund, Highway Trust Fund, Airport and Airway Trust Fund,
     Hazardous Substance Superfund Trust Fund, Leaking Underground Storage Tank Trust
     Fund, Oil Spill Liability Trust Fund, Harbor Maintenance Trust Fund, Inland Waterways
     Trust Fund, and the South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund.
     The attestation examination did not identify any deficiencies in internal control or
     instances of reportable noncompliance with laws and regulations. (OIG-06-004)




INFORMATION TECHNOLOGY

Evaluation of Treasury’s FISMA Implementation for Fiscal Year 2005

                                   The Federal Information Security Management Act
 … we believe that despite some    0f 2002 (FISMA) requires an annual evaluation of
 progress, Treasury has significantTreasury’s information security program and
 deficiencies that constitute substantial
                                   practices. An IPA, under OIG supervision, performed
 noncompliance with FISMA.         the fiscal year 2005 evaluation of Treasury’s non-
                                   national security systems, except for those of IRS.
TIGTA performed the FISMA evaluation for the IRS systems. Based on the results of these



10             Treasury Office of Inspector General Semiannual Report – March 2006
               S IGNIFICANT A UDITS AND E VALUATIONS

evaluations, we believe that despite some progress, Treasury has significant deficiencies
that constitute substantial noncompliance with FISMA. The most important of these
deficiencies follow:

   •   In 2004, the Treasury Chief Information Officer’s (CIO) system inventory was found
       to be inaccurate and incomplete. In addition, the CIO’s office had not assessed the
       consistency of the methodologies used by certain bureaus to re-categorize their
       inventories, nor had it assessed the impact of the inventory changes on the
       remainder of Treasury. In September 2005, the Treasury CIO issued a memo to
       bureau CIOs containing guidance on developing a FISMA inventory and a data call
       for an updated system inventory, including national security systems. The memo
       required the bureaus to update their inventories by October 10, 2005. Because the
       results of this effort were not available as of the issuance of our report, we were
       unable to assess the accuracy, completeness, and consistency of the Treasury
       system inventory.

   •   Treasury was not fully in compliance with OMB’s requirement to include all systems
       in the FISMA report and to categorize these systems according to certain criteria. In
       particular, we noted that the bureaus had inconsistent treatments for nonmajor
       applications. In many cases, nonmajor applications were not reported or were
       reported as part of a general support system or a major application.

   •   IRS continues to have significant deficiencies in its information security program
       and practices. In its fiscal year 2005 FISMA evaluation for IRS, TIGTA reported
       concerns in the following areas: system inventory categorization, certification and
       accreditation, continuous monitoring of systems, tracking corrective actions,
       training employees with key security responsibilities, contractor oversight, and
       security configuration policies.

   •   Other bureaus within Treasury also have significant deficiencies in their information
       security program and practices. The IPA reported concerns in the following areas at
       various bureaus: certification and accreditation, training, plans of actions and
       milestones, security self-assessments, and system inventory categorization.
       (OIG-CA-06-001)

A Treasury Communications System Disaster Recovery Exercise Was Not
Successful

The Treasury Communications System (TCS) is a         Treasury was unable to successfully
nationwide data network whose mission is to           transfer and sustain the processing of
provide best-cost, secure, robust, and reliable       TCS services at the backup facility for
telecommunications services to Treasury and its       all of the Treasury bureaus and the
associated bureaus and business partners. We          related component agencies.
conducted a follow-up audit to determine if
Treasury could successfully perform its disaster recovery capability for TCS operations. As



             Treasury Office of Inspector General Semiannual Report – March 2006             11
                S IGNIFICANT A UDITS AND E VALUATIONS

part of the audit, we observed a TCS disaster recovery exercise conducted in August 2005
to determine if deficiencies identified in prior audits were corrected.

For the observed exercise, Treasury attempted to address the following two
recommendations from our May 2005 report entitled INFORMATION TECHNOLOGY: The
Treasury Communications System’s Disaster Recovery Capability Has Improved (OIG-05-
038): (1) Treasury should conduct an exercise during a peak utilization period including all
components requiring connection to TCS, and (2) Treasury should establish a prioritization
plan that provides guidance for shutting down low-priority bureaus or systems. Although
the exercise did include all of the components, it was unsuccessful. Treasury was unable
to successfully transfer and sustain the processing of TCS services at the backup facility
for all of the Treasury bureaus and the related component agencies. In addition, the
prioritization plan developed was still in draft. As a result, we reaffirmed these two
recommendations. Based on our work for the August 2005 exercise, we further
recommended that Treasury (1) determine the cause(s) of the inability to complete the
exercise and implement necessary corrections or upgrades to ensure that the backup
facility will operate adequately during future exercises or during actual disasters and
(2) establish a policy that identifies how a system overload at the backup facility would be
managed over longer periods of time.

Management agreed with our recommendations and established corrective measures with
target completion dates ranging from September 2005 through September 2006.
(OIG-06-001)




PROGRAMS AND OPERATIONS

Treasury Communications Enterprise Procurement Was Poorly Planned, Executed,
and Documented

                                           Treasury’s current telecommunication services
 We determined Treasury’s poor planning    are being provided through TCS. Treasury issued
 and execution of the TCE procurement led  a request for proposals to replace TCS. The new
 to delays and increased costs.            telecommunications services procurement,
                                           Treasury Communications Enterprise (TCE), was
estimated to be potentially worth $1 billion over its expected 10-year life.

We performed an audit to determine whether Treasury’s business case for the TCE
procurement was based on appropriate and supportable assumptions and cost/benefit
estimates. In December 2004, Treasury awarded the TCE contract to AT&T. The award
was subsequently protested and the protest was sustained by the U.S. Government
Accountability Office (GAO). In response, Treasury informed GAO in May 2005 that the
Department would terminate the TCE contract with AT&T and acquire TCE services
through GSA contracting vehicles.


12            Treasury Office of Inspector General Semiannual Report – March 2006
               S IGNIFICANT A UDITS AND E VALUATIONS


Since this initial response, Treasury reversed its course. In short, Treasury informed GAO
that it now fully intends to acquire its wide-area network requirements through the TCE
solicitation pursuant to the recommendations in the GAO protest decision. Treasury
amended and reopened the TCE solicitation in October 2005. Extended several times, the
deadline for bids was December 8, 2005.

We determined that Treasury’s poor planning and execution of the TCE procurement led to
delays and increased costs. Specifically, we found that Treasury’s consideration of GSA
contract vehicles, both at the outset and following the TCE bid protest decision, was
incomplete and that the business case documentation provided by Treasury, both during
and after completion of our fieldwork, was deficient. Further, Treasury was not able to
provide an adequate business case supporting this major acquisition. The contract files for
the TCE project also lacked evidence of senior management approval of the TCE
acquisition plan and failed to adequately detail how Treasury arrived at its $1 billion cost
estimate for TCE.

We recommended that Treasury consider all options before awarding the TCE contract,
including the option of canceling the solicitation. We also recommended that if Treasury
awards a contract under the TCE solicitation that provides for option periods, the
contracting officer should conduct a rigorous, defendable, and documented analysis before
the options are exercised. Furthermore, we recommended that for future major
procurements, all relevant planning and decision documents be maintained in a manner to
be readily available for management reference and review as well as audit.

Management concurred with the recommendations and has undertaken actions to
assemble a cohesive and complete set of TCE-related project management files in a single
repository. Although the supporting documentation did not reflect senior management
decisions to the extent necessary for management review and audit, management’s
response asserted that the TCE contract files complied with all requirements and had the
full support of senior officials. (OIG-06-028)

As of the end of this semiannual reporting period, the Department had not yet awarded a
contract under the amended TCE solicitation.

BEP Should Ensure That Its Currency Billing Rates Include All Costs

BEP operations are financed through a revolving      …BEP’s practice of using excess
fund that is reimbursed from product sales. BEP      working capital to reduce currency
is also authorized to include in the prices          billing rates should be revisited.
charged for products an amount sufficient to
fund future capital investment and to meet working capital requirements, thus eliminating
the need for appropriations from Congress. Sales of currency to the Federal Reserve
System represented more than 90 percent of BEP’s revenue, with sales of postage stamps
to the U.S. Postal Service representing the majority of the balance. During this semiannual
period, we completed an audit to determine the adequacy of BEP’s pricing methodology for


             Treasury Office of Inspector General Semiannual Report – March 2006          13
                S IGNIFICANT A UDITS AND E VALUATIONS

currency to (1) cover all costs of manufacturing products and services performed,
(2) provide for acquisition of capital equipment, and (3) provide for working capital needs.

Our review noted that BEP was accumulating working capital in excess of its needs. Rather
than return the excess as a miscellaneous receipt to the general fund of the Treasury, BEP
used the excess to (1) reduce currency billing rates and (2) issue refunds directly to the
Federal Reserve. We concluded that BEP’s practice of using excess working capital to
reduce currency billing rates should be revisited. There was a general lack of explanation
regarding the underlying rationale for this practice and the methodology used. We
recommended that the BEP Director ensure that excess working capital is returned to the
Treasury general fund and better explain BEP’s rationale and methodology for setting
currency rates in its annual report.

We also found that the full cost of BEP’s currency operations is not reflected in the
currency billing rates. The rates did not include post-retirement benefit costs paid by the
appropriated funds of the Office of Personnel Management (OPM). These costs amounted
to $9.8 million for fiscal year 2004. We recommended that currency billing rates consider
the full cost of operations, including imputed costs, such as those for employee benefits
paid by OPM. To the extent the currency rates result in excess monies to the BEP revolving
fund, these should be deposited to the Treasury general fund. Over a 3-year period, we
projected that implementation of this recommendation would result in $29.4 million in
funds put to better use.

In addition, BEP’s currency billing process lacks written policies and procedures as well as
documentation of sufficient internal controls over the establishment of billing rates, and the
funding of capital projects in the calculation of working capital.

In its response, BEP management stated that it would continue its practice to reduce
currency rates for excess working capital instead of returning the excess directly to the
Treasury general fund but would include additional discussion related to its pricing
methodology in future annual reports. BEP management did not concur with our
recommendation to include post-retirement benefit costs paid by OPM as part of the billing
rate. We believe the recommendation should be implemented. We are currently working
with the Department to resolve this matter in accordance with Treasury’s audit resolution
process. BEP management concurred with our other recommendations. (OIG-06-010)

Control Issues Identified at BEP’s Western Currency Facility

                                      We issued an interim audit report as part of a
 … WCF did not have a contingency
                                      broader, ongoing audit of internal controls at BEP’s
 plan for destroying mutilated currency
                                      Western Currency Facility (WCF), located in Fort
 when its destruction equipment was
                                      Worth, Texas. In this report, we identified two
 not functioning.
                                      internal control issues. First, we found that WCF did
                                      not have a contingency plan for destroying mutilated
currency when its destruction equipment was not functioning. As a result, mutilated
currency designated for destruction was accumulating until the destruction equipment


14            Treasury Office of Inspector General Semiannual Report – March 2006
                S IGNIFICANT A UDITS AND E VALUATIONS

could be replaced. We recommended that BEP develop and implement a contingency plan
for this situation.

Second, we found that mutilated currency was being stored in clear tanks and later
transferred to cardboard boxes. While these transfers were made under supervision,
providing some measure of control, we believe that once the mutilated currency was
verified, it should not have been rehandled without another verification process. We
recommended that BEP ensure proper accountability was maintained and require that the
stored mutilated currency be verified before it is destroyed.

In its response, BEP management concurred with our recommendation to develop a
contingency plan. For the second internal control issue, management stated that BEP had
verified 36 percent of the mutilated currency straps and then destroyed all the straps.
(OIG-06-015)

Treasury Activities for Iraq Reconstruction

We conducted an audit at Treasury’s Office of
                                                        …Treasury provides technical
Technical Assistance (OTA) to (1) identify Treasury
                                                        assistance and support to modernize
activities and funding involving Iraq relief and
                                                        the Iraqi banking system and establish
reconstruction and (2) determine the completeness
                                                        a nationwide payment system among
and accuracy of OTA’s quarterly financial reporting
                                                        local banks and the central bank….
to the Special Inspector General for Iraq
Reconstruction (SIGIR) regarding these activities. We found that (1) Treasury provides
technical assistance and support to modernize the Iraqi banking system and establish a
nationwide payment system among local banks and the central bank and (2) the financial
information provided by OTA to SIGIR was accurate. As of February 28, 2006, Treasury
had obligated $32.9 million out of $35.1 million apportioned to the Iraqi reconstruction
programs and disbursed $26.3 million. (OIG-06-029)




              Treasury Office of Inspector General Semiannual Report – March 2006            15
                        S IGNIFICANT I NVESTIGATIONS

Former BEP Employee Indicted and Arrested for Workers’ Compensation Fraud

                                                  Treasury OIG, in conjunction with the
 The investigation determined that the former     Department of Labor (DOL) OIG, the
 employee, who has been receiving workers'        Federal Bureau of Investigation (FBI), and
 compensation since approximately March 1992,     the United States Attorney's Office (USAO)
 submitted fraudulent documentation…in order      for the District of Columbia, conducted a
 to…receive over $270,000 in workers’             joint investigation regarding the fraudulent
 compensation.                                    receipt of workers’ compensation by a
                                                  former BEP employee.

The investigation determined that the former employee, who has been receiving workers'
compensation since approximately March 1992, submitted fraudulent documentation
executed in the name of fictitious doctors in support of his claim. This documentation
included attending physician reports, medical narratives, interim medical reports,
reemployment reports as well as false annual certifications and other false statements to
the DOL Office of Workers' Compensation Program in order to fraudulently receive over
$270,000 in workers’ compensation.

On February 23, 2006, the former employee was indicted on three counts of violating
18 U.S.C. 1920 (false statements to obtain federal employees' compensation), three
counts of violating 18 U.S.C. 1343 (wire fraud), and one count of violating
18 U.S.C. 1001 (false statements). Pursuant to an arrest warrant issued by the United
States District Court for the District of Columbia, the former BEP employee was arrested
on February 24, 2006. This case is pending further judicial action.

Secretary of The Treasury Cleared of Conflict of Interest

At the request of the Secretary of the         The potential conflict concerned the purchase and
Treasury, OIG conducted an investigation       subsequent retention of approximately $10.8
of a possible violation by the Secretary of    million of government sponsored enterprises (GSE)
18 U.S.C. 208 (conflict of interest). The      debt instruments of the three housing GSEs….
potential conflict of interest concerned
the purchase and subsequent retention of
approximately $10.8 million worth of government sponsored enterprises (GSE) debt
instruments of the three housing GSEs – the Federal National Mortgage Association, the
Federal Home Loan Mortgage Corporation, and the Federal Home Loan Banks – while he
was acting in his official capacity as Secretary of the Treasury, which would be prohibited
by 31 U.S.C. § 329(a)(1)(D).

The investigation determined that prior to his being sworn in as Secretary of the Treasury,
the Secretary purchased, through his investment broker, what he believed to be U.S.
Treasury securities when, in fact, he had purchased GSEs. No evidence was developed
which suggested that the Secretary knowingly held GSEs while serving as Secretary of the
Treasury.



16            Treasury Office of Inspector General Semiannual Report – March 2006
                          S IGNIFICANT I NVESTIGATIONS

The results of the investigation were presented to the U.S. Department of Justice (DOJ),
Public Integrity Section, Criminal Division, which concluded that federal criminal
prosecution was not warranted. Similarly, the DOJ Civil Division also declined to seek any
civil remedies.

Former OCC Examiner-in-Charge Cleared of Wrongdoing

                                                    At the request of the Chairman of the
 The investigation disclosed no evidence to suggest Senate Committee on Banking, Housing
 that during pre-employment activities with Riggs   and Urban Affairs and the Chairwoman of
 Bank, the EIC received anything of value from      the Oversight and Investigations
 Riggs Bank….                                       Subcommittee of the House Committee
                                                    on Financial Services, OIG conducted a
joint investigation with the FBI, under the direction of the USAO for the District of
Columbia, into the activities of the former OCC Examiner-in-Charge (EIC), and then Vice
President, of Riggs Bank.

The investigation disclosed no evidence to suggest that during pre-employment activities
with Riggs Bank, the EIC received anything of value from Riggs Bank that would have
resulted in a violation of 18 U.S.C. 208 (acts affecting personal financial interest),
18 U.S.C. 209 (supplementation of government salary), or 18 U.S.C. 213 (acceptance of a
gratuity by a bank examiner); nor was any evidence developed to suggest any post-
employment violation by the EIC (i.e., an attempt to influence an OCC proceeding or
action) that would have resulted in a violation of 18 U.S.C. 207 (restrictions on former
officers, employees and elected officials of the executive and legislative branches).
Prosecution was declined by the USAO. As a consequence of the Senate’s inquiry,
Congress subsequently passed legislation reforming post employment restrictions on bank
examiners.

FinCEN Employee Resigns Following Proposed Suspension for Installing Sexually
Explicit Software Programs On Government Computer

An OIG investigation disclosed that a FinCEN employee downloaded and installed sexually
explicit software programs onto his government computer as well as viewed pornographic
sites from his computer. Following proposed administrative action of suspension, the
employee resigned effective October 5, 2005.

OFAC Employee Suspended 14 Days for Viewing Pornography on Government
Computer

An OIG investigation determined that an OFAC employee verbally harassed and intimidated
a co-worker, misused a government issued computer by viewing and sending sexually
explicit images, and misused government time by willfully spending a significant portion of
the work day engaged in non-work-related activities. The employee received a 14-day
suspension.


               Treasury Office of Inspector General Semiannual Report – March 2006       17
                          S IGNIFICANT I NVESTIGATIONS

FinCEN Employee Suspended 14 Days for Viewing Sexually Explicit Images on
Government Computer

An OIG investigation determined that        …a FinCEN employee viewed, downloaded, and
during August and September 2004, a         saved sexually explicit photographs onto a FinCEN
FinCEN employee viewed, downloaded,         network computer.
and saved sexually explicit photographs
onto a FinCEN network computer. FinCEN’s computer network maintains highly sensitive
financial information pertaining to BSA. A forensic analysis of the computer’s hard drive
disclosed over 80 e-mails with sexual innuendos and over 600 sexually-explicit images.
The bureau proposed a 30-day suspension for the employee, which was reduced to 14
days following the employee’s oral response to the proposal.

BEP Supervisory Police Officer Misused Government Computer

An OIG investigation determined that a BEP supervisory police officer utilized his assigned
government computer to access pornographic websites on an almost daily basis and
transmit pornographic e-mails while on duty. A Report of Investigation was recently sent to
BEP for purposes of taking appropriate administrative action.

FinCEN Program Manager Misuses Government Travel Card

An OIG investigation disclosed that a FinCEN program manager used a government-issued
travel card for personal charges of $2,635 between April and August 2004. The personal
charges were reflected in the employee’s billing statements, and were paid. FinCEN has
proposed that the employee receive a 10-day suspension for misusing the travel card.

BEP Specimen Notes and Engravers’ Proofs Recovered

                                                  Upon receiving information from the BEP
 The individuals were attempting to sell these items
 for profit over the internet.                    Office of Security, OIG conducted an
                                                  investigation regarding misappropriated
BEP specimen notes and engravers’ proofs. The investigation disclosed that two individuals
were in possession of 13 individual specimens and proofs. These specimens and proofs are
the exclusive property of the U.S. government and are not intended for public use. The
individuals were attempting to sell these items for profit over the internet. The notes and
proofs were seized by the U.S. Secret Service as possible contraband and were
subsequently turned over to BEP through our office for entry into BEP’s historical records
vault.




18             Treasury Office of Inspector General Semiannual Report – March 2006
                       S IGNIFICANT I NVESTIGATIONS

The following are updated cases of investigative activities from previous
semiannual reports.

Contractors Agree To Settle False Claim Allegations

As previously reported, the DOJ Civil Division and the USAO for the Central District of
California headed an investigation, assisted by various agencies including the Treasury OIG,
into allegations that PricewaterhouseCoopers LLP (PwC) submitted false claims to the
government relating to travel reimbursements. In July 2005, PwC agreed to a financial
settlement of $41.9 million with the DOJ Civil Division. The settlement share for Treasury
was estimated at approximately $567,000.

Update: Following the PwC settlement, the contractors Ernst & Young (E&Y), Bearing
Point, Inc., (Bearing Point), KPMG, and Booz Allen Hamilton also agreed to enter into
settlement agreements relating to false claims for travel reimbursements. In December
2005, the firms agreed to the following financial settlements with the DOJ Civil Division:
E&Y for $4,471,980; Bearing Point for $15,000,000; KPMG for $2,770,000; and Booz
Allen Hamilton for $3,365,664. According to the Defense Contract Audit Agency, the
estimated Treasury portion of the settlement is $380,523 from Booz Allen Hamilton;
$2,460 from E&Y; $1,130 from KPMG; and $682 from Bearing Point.

BEP Employees Misused Government Computers

As reported in the last semiannual report, an OIG investigation determined that while on
duty, 12 employees within one section of BEP viewed, sent, and/or saved sexually explicit
or inappropriate images on a government computer. It was also determined that managers
within the section knew and participated in the viewing, sending, and saving of sexually
explicit material on government computers, and initially withheld this information from OIG
investigators. As we reported, BEP’s Labor Management Relations Division had
recommended that these employees receive suspensions varying from 1 to 14 days and/or
oral counseling.

Update: All 12 employees received suspensions and/or oral counseling. Specifically,
1 manager received a 14-day suspension, 6 managers received 10-day suspensions,
1 employee received a 5-day suspension, 1 employee received a 1-day suspension, and
3 employees received oral counseling.

DC Resident Sentenced For Thefts from Treasury and Other Tenants in an Office Building

As reported in the last semiannual report, District of Columbia resident Ameenah Franks
was arrested and pled guilty as a result of an OIG investigation into thefts from Treasury
and other tenants at an office building in Washington, DC, in September 2004.

Update: On October 20, 2005, Franks was sentenced to 36 months incarceration,
36 months of probation and was fined a $100 special assessment. She was also ordered



             Treasury Office of Inspector General Semiannual Report – March 2006             19
                       S IGNIFICANT I NVESTIGATIONS

to undergo drug testing and treatment, undergo psychiatric evaluation and treatment, and
attend anger management counseling.




20           Treasury Office of Inspector General Semiannual Report – March 2006
          O THER OIG A CCOMPLISHMENTS AND A CTIVITIES

Treasury OIG Hosts International Delegations

In March 2006, Inspector General Damelin and OIG executives met separately with
governmental and other representatives from Turkmenistan and Pakistan. We discussed the
mission of U.S. government Inspectors General and the Treasury OIG. Visiting from
Turkmenistan were Messrs. Sapargeldi Annarejepov, Head of Analysis and Risk
Management Department, Central Bank of Turkmenistan; Annamuhamed Gochiyev, Head
of Accountability Department, Ministry of Economics and Finances; and Pelvan Taganov.
Director, Bureau of Technical Assistance Coordination, Cabinet of Ministers of
Turkmenistan. Visiting from Pakistan were: Messrs. Aamir Aziz Khan, Partner, Aziz Law
Associates; Ghulam Akbar Laghari, District Officer, Revenue, District Dadu; Amjad
Mahmood, Additional Director, Restructuring, National Accountability Bureau, Ministry of
Finance; Mohammad Zahid, Deputy Director (Rehabilitation), Directorate of Lands and
Rehabilitation, Capital Development Authority, Islamabad. The meetings were arranged by
the Department of State.




IG Damelin (center front) and
OIG staff meet with
Turkmenistan government
officials to discuss the OIG
mission.




Treasury OIG Lends Assistance in Response to Hurricane Katrina

Hurricane Katrina caused catastrophic damage along the coastlines of Louisiana,
Mississippi, and Alabama. The Federal Emergency Management Agency (FEMA), along
with a cadre of Inspector General Offices responded to combat fraud and other crimes
related to this natural disaster. In this regard, Treasury OIG participated in the Katrina
Fraud Hotline operation by assigning four of our agents to answer calls over a 4-month
period. Examples of hotline call topics included the following:

•   Use of incorrect addresses and social security numbers by individuals to obtain FEMA
    benefits under fraudulent pretenses

•   Collection of donations or benefits from nonprofit organizations by individuals using
    fraudulent addresses and false or fictitious personal data


               Treasury Office of Inspector General Semiannual Report – March 2006           21
          O THER OIG A CCOMPLISHMENTS AND A CTIVITIES

•    Erroneously alleging/claiming personal property damage post storm that, in all
     likelihood, existed prior to Hurricane Katrina.

              Dates of Katrina Fraud        Referred                    Total Calls
                 Hotline Coverage            Cases          Other        Handled
             10/30/2005 – 2/17/2006           427           414            841


OIG Launches Proactive Initiative to Combat Fraud Associated with FECA

A longtime area of concern in the federal government is the potential for fraud associated
with benefits paid under the Federal Employees’ Compensation Act (FECA). To illustrate
the size of the FECA program, in 2000 $2.1 billion in benefits were paid under the
direction of DOL’s Office of Workers’ Compensation, the agency charged with
administering the FECA program. At the same time, the Office of Workers’ Compensation
initiated 174,000 new claims under the FECA program. In fiscal year 2005, Treasury paid
$10 million in FECA-related claims.

OIG initiated a proactive project, which is being conducted jointly by OI and OA, in an
effort to identify instances of fraud in the FECA program within Treasury. This project is
part of a much larger initiative throughout the executive branch. Treasury OIG is a member
of the Federal Workers’ Compensation Forum hosted by the Postal Service OIG and
participates in the DOL FECA working group.

OI Continues Its Participation in Multi-Jurisdiction Federal Task Forces to Combat
Fraud

Over the past year, OIG has continued to work closely with the USAOs in Washington, DC,
Richmond, VA, and Baltimore, MD, to coordinate and integrate the ongoing efforts of
various agencies and task forces throughout the United States to fight the emerging
problem of fraud and identity theft crimes, which threatens the nation’s financial
infrastructure and the general public. By functioning as a repository of expertise and
intelligence, the task forces will improve the speed, quality, and effectiveness of law
enforcement’s response to these types of crimes.

Baltimore Area Metropolitan Fraud Task Force

OIG, participating as member of the Baltimore Area Metropolitan Fraud Task Force,
successfully investigated a complex bank fraud and aggravated identity theft case,
resulting in a 10-count indictment on one individual. The defendant in this case initiated a
scheme to defraud the Bank of America (BOA) through the unauthorized use and theft of
the personal information of numerous BOA account holders in California from September
2004 through March 2005. The indictment alleges that the defendant obtained account
holders’ bank account numbers and balances, names and addresses, and driver’s license
numbers. Using that stolen information, it is alleged that the defendant manufactured
identification documents bearing the names and addresses of BOA account holders but
portraying the photographs of the defendant and his associates. The defendant is alleged
22             Treasury Office of Inspector General Semiannual Report – March 2006
         O THER OIG A CCOMPLISHMENTS AND A CTIVITIES

to have obtained approximately $274,000 in stolen proceeds from numerous branches of
BOA located in Maryland, Virginia, North Carolina, and Florida.

IGATI Curriculum Review Board Update

The Inspectors General Auditor Training Institute (IGATI) was created by the President’s
Council on Integrity and Efficiency (PCIE) in December 1990 as a reimbursable program
within Treasury OIG. IGATI provides training to enhance the skills, abilities, and knowledge
of auditors in the federal OIG community. Under the leadership of Assistant Inspector
General for Audit Marla Freedman, the IGATI Curriculum Review Board (Board) was formed
in fiscal year 2005 to assist the PCIE Audit Committee in achieving its strategic goal to
identify and provide useful, relevant, and cost-effective auditor training.

During this semiannual reporting period, the Board provided the PCIE Audit Committee with
a summary report of the seven IGATI courses reviewed during fiscal year 2005, about a
fourth of IGATI’s course offerings. In brief, the Board reported that 5 of the reviewed
courses provided valuable training and, with certain modifications, should continue to be
offered. For the other 2 reviewed courses, the Board reported that significant modifications
to the courses were needed if they are to be useful to federal auditors. The IGATI Director
generally agreed with the Board’s recommendations.

Effective March 7, 2006, IGATI, the Inspector General Criminal Investigator Academy, and
the Inspector General Management Institute consolidated to become the Inspector General
Institute (IG Institute). Under this new structure, IGATI is now known as the IG Institute
School of Audit and Inspections. The Board met in January 2006 to finalize the schedule
for courses to be reviewed during fiscal year 2006. In total, 20 courses were targeted for
review.

Participating in the course reviews in fiscal year 2005 were the OIGs of the Departments
of Defense, Education, Interior, and Commerce; U.S. Agency for International
Development; GSA; Social Security Administration; and Environmental Protection Agency.
These OIGs plan to participate again in fiscal year 2006, along with the Naval Audit
Service and the OIGs of the Departments of Commerce and Housing and Urban
Development.

OIG Combined Federal Campaign Efforts Lauded by the Department and CFC
Executives

OIG’s Combined Federal Campaign (CFC) efforts were lauded by Treasury departmental
representatives and CFC executives. Led by OI, key workers within OIG worked diligently
to ensure that the 2005 campaign was a success. OIG far exceeded its goals for individual
participation and dollars collected. In recognition, Treasury OIG received a number of
awards, including the prestigious Secretary’s Cup.




             Treasury Office of Inspector General Semiannual Report – March 2006          23
                               S TATISTICAL S UMMARY


Summary of OIG Activity
For the 12 Months Ended March 31, 2006 (Dollars in Thousands)

                                             4/1/2005 –         10/01/05-
              OIG Activity                   9/30/2005          03/31/06
                                                                                  Period Totals
                                    Office of Counsel Activities
     Legislation and Regulation
                                                          7                  3                10
     Reviews
     Instances Where Information was
                                                          0                  0                    0
     Refused
                                        Office of Audit Activities
     Reports Issued                                       18                31                49
     Audit Reports with
     Recommendations Pending                              0                  0                    0
     Management Decision
     Significant Revised Management
                                                          0                  0                    0
     Decisions
     Management Decision With Which
                                                          0                  0                    0
     the IG Disagrees
     Monetary Benefits (Audit)
     a) Questioned Costs                           $2,843                 $0             $2,843
     b) Funds Put to Better Use                        $0                 $0                 $0
     c) Revenue Enhancements                           $0            $29,400            $29,400
     Total Monetary Benefits                       $2,843            $29,400            $32,243
                                 Office of Investigations Activities
     Reports of Investigation                             14                16                30
     Preliminary Inquiry Closing
                                                          18                62                80
     Memorandums
     Number of OIG Hotline Calls
                                                      279                   149              428
     Processed
     Allegations – Total Number
                                                      182                   210              392
     Processed
     Referrals Made During the Period                 101                   123              224
     Cases Open at Start of Period                    150                   183         150 Start
     Cases Opened in the Reporting
                                                          40                38                78
     Period
     Cases Closed in the Reporting
                                                           7                45                52
     Period
     Cases Open at the End of the
                                                      183                   176          176 End
     Period




24            Treasury Office of Inspector General Semiannual Report – March 2006
                              S TATISTICAL S UMMARY


                                      4/1/2005 –           10/01/05-
            OIG Activity              9/30/2005            03/31/06
                                                                            Period Totals
Inquiries   Open at Start of Period                59                  76            59 Start
Inquiries   Opened in the Reporting
                                                   43                  34                 77
Period
Inquiries   Closed in the Reporting
                                                   26                  46                 72
Period
Inquiries   Open at the End of the
                                                   76                  64             64 End
Period
Judicial Actions
Cases Referred for Prosecution                  53*                    34                 87
Cases Accepted for Prosecution                   32                    10                 42
Arrests                                          26                    13                 39
Search Warrants                                 10*                    18                 28
Indictments/Information                          20                     1                 21
Pleas                                             9                     2                 11
Conviction by Trial                               1                     0                  1
Imprisonment (Months)                            26                    83                109
Home Detention (Months)                           0                     0                  0
Probation (Months)                              204                    72                276
Community Service (Hours)                      1040                     0               1040
Administrative Sanctions
Adverse Personnel Actions                          17                  5                  22
Contractor
                                                   0                   0                    0
Suspensions/Debarments
Individual
                                                   2                   1                    3
Suspensions/Debarments
Oversight Activities
Quality Assessment Reviews                         1                    0                  1
Management Implication Reports                     0                    0                  0
Fraud and Integrity Briefings                      7                   11                 18
Monetary Benefits
Fines                                          $2**                 $10                  $12
Restitution                                     $92                $188                 $281
Recoveries                                    $39**                  $0                  $39
Settlements                                    $569                $385                 $953
Savings/Cost Avoidance                           $0                  $0                   $0
Actual Losses Identified                       $744                  $0                 $744

*Number of cases referred for prosecution and executed search warrants amended from the
last reporting period, reflecting increase in data counts, due to receipt after reporting deadline.

**Monetary amounts for fines and recoveries amended from last reporting period, which
erroneously included amounts reflecting potential losses rather than actual damages and civil
penalties. Both corrected fields are for the same case, which is pending final resolution.




            Treasury Office of Inspector General Semiannual Report – March 2006                 25
                            S TATISTICAL S UMMARY

Significant Unimplemented Recommendations
For Reports Issued Prior to March 31, 2006

 Number       Date   Report Title and Recommendation Summary

OIG-02-115   9/02    INFORMATION TECHNOLOGY: Treasury’s Planning, Management, and
                     Implementation of a Smart Card and Public Key Infrastructure (PKI) Needs
                     Improvement
                     The CIO should ensure that Treasury (1) establishes a Treasury program to
                     effectively manage smart cards and PKI; (2) develops a program plan
                     defining roles and responsibilities, and milestones and resources needed for
                     smart card and PKI initiatives; (3) plans for adequate staffing of employees
                     to support smart card and PKI infrastructure as enterprise architecture;
                     (4) uses another hard token as an interim security measure along with smart
                     cards to provide strong two-factor authentication for digital certificates; and
                     (5) establishes appropriate record management controls for general,
                     sensitive, and secret information related to the Treasury smart card and PKI
                     infrastructure. (5 recommendations)


OIG-02-122   9/02    Community Development Financial Institution Fund Post Award
                     Administration Process
                     The CDFI Fund Director should initiate action to amend the OMB Circular
                     A-133 Compliance Supplement to reflect revised accountability requirements
                     for financial assistance funds. (1 recommendation)


OIG-03-007   10/02 INFORMATION TECHNOLOGY: Controls Over FinCEN's Law Enforcement
                   Data Need Improvement
                   The FinCEN Director should establish a formal process for approving,
                   transmitting, and maintaining system access authorization forms to reduce
                   the risks associated with granting excessive or unauthorized access
                   privileges, alterations, misunderstandings, and mishandled forms.
                   (1 recommendation)


OIG-03-038   12/02 PROTECTING THE PUBLIC: Treasury Departmental Offices' Control Over
                   Computers Needs To Be Improved
                   DO should re-evaluate the method for reporting lost or stolen computers to
                   ensure all losses are reported to the proper authorities. This should include
                   periodic reconciliations between the CIO, Treasury Office of Security and
                   Critical Infrastructure Protection, and OIG OI. (1 recommendation)


OIG-04-003   11/03 Audit of the Department of the Treasury’s Fiscal Years 2003 and 2002
                   Financial Statement
                   The Assistant Secretary for Management and Chief Financial Officer should
                   oversee efforts to ensure effective financial management structures are
                   established at TTB and International Assistance Programs.
                   (1 recommendation)

26           Treasury Office of Inspector General Semiannual Report – March 2006
                            S TATISTICAL S UMMARY

OIG-04-022   2/04   Management Letter for Fiscal Year 2003 Audit of the Department of the
                    Treasury Financial Statements
                    The Department should: research and determine whether component
                    reporting entities reporting on a basis other than federal generally accepted
                    accounting principles (GAAP) are required to do so by statute; that all
                    reporting entities within the Department prepare their financial statements in
                    accordance with federal GAAP; and entities that are statutorily required to
                    report on a basis of accounting other than federal GAAP provide
                    supplemental information in their annual reports that meets the reporting
                    requirements of federal GAAP, to include a Management Discussion and
                    Analysis. (1 recommendation)


OIG-04-035   6/04   GENERAL MANAGEMENT: Controls Over Security Need to be Improved at
                     the Bureau of Engraving and Printing
                    The BEP Director should complete plans for BEP’s Integrated Security
                    Systems and install its security upgrade systems expeditiously.
                    (1 recommendation)


OIG-05-002   10/04 MANUFACTURING OPERATIONS: Mint’s Standard A-76 Competition Study
                   for the Preparation of Ready-to-Coin Planchets Is Delayed and Requires
                   Significant Action to Complete
                   The Mint Director should ensure that the required justification is prepared
                   and the determination to provide or not provide Government Furnished
                   Property is approved by the Assistant Secretary of Management and Chief
                   Financial Officer. This should be accomplished before any future drafts of the
                   performance work statement and the final solicitation are published.
                   (1 recommendation)


OIG-05-017   12/04 Management Letter for Fiscal Year 2004 Audit of the Department of the
                   Treasury’s Financial Statements
                   The Department should implement analytical review procedures as an
                   integral part of interim financial reporting at the individual bureau level as
                   well as the Department level. The results of these analytical reviews should
                   be documented in brief narratives accompanying the financial reports.
                   (1 recommendation)


OIG-05-032   3/05   TERRORIST FINANCING/MONEY LAUNDERING: Office of Terrorist Financing
                    and Financial Crimes Needs to Refine Measures for Its Performance Budget
                    and Implement a Data Collection and Reporting System
                    The Assistant Secretary for Terrorist Financing should ensure that TFFC
                    (1) implements the recently proposed performance measures, adjusted as
                    appropriate based on planned discussions with OMB, and include the
                    measures in the Department’s fiscal year 2006 budget submission;
                    (2) implements routine data collection and reporting procedures to help
                    manage its operation and report on its performance measures; (3) creates a
                    mechanism that will allow the office to regularly gather reliable data for
                    organizations outside of Treasury; and (4) develops methods to assess the

             Treasury Office of Inspector General Semiannual Report – March 2006                27
                           S TATISTICAL S UMMARY

                    completeness and reliability of its performance measurement data. (4
                    recommendations)


OIG-05-033   3/05   FinCEN: Heightened Management Attention Needed Over Longstanding SAR
                    Data Quality Problems
                    FinCEN should assess the need to identify the specific data fields associated
                    with 15,000 duplicate suspicious activity reports (SAR) and advise law
                    enforcement so that they may better gauge the potential impact of
                    duplicates. Duplicate SARs involving certain crimes may be of more
                    importance to certain law enforcement agencies given their differing
                    authorities over certain crimes such as credit card fraud versus mortgage
                    loan fraud. (1 recommendation)


OIG-05-034   3/05   TERRORIST FINANCING/MONEY LAUNDERING: Additional Outreach and
                    System Enhancements Are Needed to Encourage Greater Use of FinCEN’s
                    BSA E-Filing
                    FinCEN should assess the feasibility and advisability of mandating electronic
                    filing of BSA reports, including analyzing the types of filers for which
                    mandating electronic filing would be most appropriate and practical. Based
                    on this analysis, FinCEN should establish a timeframe for amending, as
                    appropriate, corresponding BSA regulations. (1 recommendation)




This list of OIG audit reports with unimplemented recommendations is based on
information in Treasury’s automated audit recommendation tracking system, which is
maintained by Treasury management officials.



Summary of Instances Where Information Was Refused
October 1, 2005, through March 31, 2006

There were no such instances during this period.




28           Treasury Office of Inspector General Semiannual Report – March 2006
                              S TATISTICAL S UMMARY

Listing of Audit and Evaluation Reports Issued
October 1, 2005, through March 31, 2006

Financial Audits and Attestation Engagements

Management Letter for Fiscal Year 2004 Audit of the Federal Financing Bank's Financial
Statements, OIG-06-002, 10/4/05

United States Mint's Schedule of Custodial Gold and Silver Reserves as of September 30, 2005 and
2004, OIG-06-003, 10/31/05

FINANCIAL MANAGEMENT: Report on the Bureau of the Public Debt Trust Fund Management
Branch Schedules for Selected Trust Funds as of and for the Year Ended September 30, 2005, OIG-
06-004, 10/4/05

Audit of the Financial Management Service’s Fiscal Years 2005 and 2004 Schedules of Non-Entity
Assets, Non-Entity Costs and Custodial Revenue, OIG-06-005, 11/14/05

Management Letter for Fiscal Year 2005 Audit of the Financial Management Service's Schedule of
Non-Entity Assets, Non-Entity Costs and Custodial Revenue, OIG-06-006, 11/14/05

Audit of the Department of the Treasury's Fiscal Years 2005 and 2004 Financial Statements, OIG-
06-007, 11/15/05

Audit of the Department of the Treasury's Special-Purpose Financial Statements for Fiscal Years
2005 and 2004, OIG-06-008, 11/18/05

Audit of the Financial Management Service's Fiscal Years 2005 and 2004 Schedules of Non-Entity
Government-Wide Cash, OIG-06-009, 11/30/05

Agreed-Upon Procedures for the Department of the Treasury's Fiscal Year 2005 Intragovernmental
Activity and Balances, OIG-06-011, 12/2/2005

Audit of the Exchange Stabilization Fund's Fiscal Years 2005 and 2004 Financial Statements, OIG-
06-012, 12/5/05

Audit of the Office of D.C. Pensions' Fiscal Years 2005 and 2004 Financial Statements, OIG-06-
013, 12/7/05

Management Letter for Fiscal Year 2005 Audit of the Financial Management Service's Schedule of
Non-Entity Government-Wide Cash, OIG-06-014, 12/8/05, LOU

Audit of the Office of Thrift Supervision's Fiscal Years 2005 and 2004 Financial Statements, OIG-
06-016, 12/13/05

Audit of the Office of the Comptroller of the Currency's Fiscal Years 2005 and 2004 Financial
Statements, OIG-06-017, 12/15/05

Audit of the Bureau of Engraving and Printing's Fiscal Years 2005 and 2004 Financial Statements,
OIG-06-018, 12/20/05


              Treasury Office of Inspector General Semiannual Report – March 2006                 29
                              S TATISTICAL S UMMARY

Audit of the Community Development Financial Institutions Fund's Fiscal Years 2005 and 2004
Financial Statements, OIG-06-019, 12/21/05

Management Letter for Fiscal Year 2005 Audit of the Federal Financing Bank’s Financial
Statements, OIG-06-020, 12/27/05

Management Letter for Fiscal Year 2005 Audit of the Department of the Treasury's Financial
Statements, OIG-06-021, 1/3/06

Audit of the Federal Financial Bank’s Fiscal Years 2005 and 2004 Financial Statements, OIG-06-
022, 1/4/06

Audit of the Department of the Treasury Forfeiture Fund's for Fiscal Years 2005 and 2004 Financial
Statements, OIG-06-023, 1/26/06

Management Letter for Fiscal Year 2005 Audit of the Treasury Forfeiture Fund's Financial
Statements, OIG-06-024, 1/26/06

Audit of the Financial Crimes Enforcement Network's Fiscal Year 2005 Balance Sheet, OIG-06-027,
2/1/06

Information Technology Audits and Evaluations

INFORMATION TECHNOLOGY: The TCS Disaster Recovery Exercise Was Not Successful, OIG-06-
001, 10/4/2005

INFORMATION TECHNOLOGY: Evaluation of Treasury’s FISMA Implementation for Fiscal Year
2005, OIG-CA-06-001, 10/07/05

Performance Audits

BILL AND COIN MANUFACTURING: The Bureau of Engraving and Printing Should Ensure That Its
Currency Billing Rates Include All Costs and That Excess Working Capital Is Deposited in the General
Fund, OIG-06-010, 12/2/05, $29,400,000 RH

BILL AND COIN MANUFACTURING: Control Issues Identified at the Bureau of Engraving and
Printing Western Currency Facility, OIG-06-015, 12/8/05

MAJOR ACQUISITIONS: Treasury Communications Enterprise Procurement was Poorly Planned,
Executed, and Documented, OIG-06-028, 2/10/06

INTERNATIONAL ASSISTANCE PROGRAMS: Review of Treasury Activities for Iraq Reconstruction,
OIG-06-029, 3/23/06

Supervised Contract Audits

CONTRACT AUDIT: Audit Report on Application of Agreed-Upon Procedures for Burson-Marsteller
Task Order BEP-05-03, Contract Number TEP-02-015, Task Orders 1 – 15, and 29, OIG-06-025,
1/26/06



30            Treasury Office of Inspector General Semiannual Report – March 2006
                                        S TATISTICAL S UMMARY

CONTRACT AUDIT: Audit Report on Application of Agreed-Upon Procedures for Burson-Marsteller
Task Order BEP-05-03, Contract Number TEP-02-015, Task Orders 16 – 28, and 43, OIG-06-026,
1/26/06

Other

IGATI Curriculum Review Board Summary Report – IGATI Courses Reviewed During Fiscal Year
2005, OIG-CA-06-002, 3/30/06



Audit Reports Issued with Questioned Costs
October 1, 2005, through March 31, 2006 (Dollars in Thousands)

                                                                                        Total
                             Category                               No. of       Questioned          Unsupported
                                                                   Reports         Costs                Costs
    For which no management decision had been
    made by beginning of reporting period                                    4         2,885              0

    Which were issued during the reporting period                            0              0             0
    Subtotals                                                                4         2,885              0
    For which a management decision was made
    during the reporting period                                              4         2,885              0

                 dollar value of disallowed costs                         4a           2,801              0
                 dollar value of costs not disallowed                     2a               84             0
    For which no management decision had been
    made by the end of the reporting period                                  0              0             0

    For which no management decision was made
    within 6 months of issuance                                              0              0             0



    All audits were performed by the Defense Contract Audit Agency under our supervision. A “questioned cost”
    denotes that one or more of the following three situations exist: (1) an alleged violation of a provision of a law,
    regulation, contract, grant, cooperative agreement, other agreement, or document governing the expenditure of
    funds; (2) a finding that, at the time of the audit, such cost is not supported by adequate documentation; or
    (3) a finding that the expenditure of funds for the intended purpose is unnecessary or unreasonable.

    a
        One report was partially agreed to and partially not agreed to.




                   Treasury Office of Inspector General Semiannual Report – March 2006                                    31
                                      S TATISTICAL S UMMARY

Audit Reports Issued with Recommendations that
Funds Be Put to Better Use
October 1, 2005, through March 31, 2006 (Dollars in Thousands)

                                                         No. of                                      Revenue
                    Category                                            Total        Savings
                                                        Reports                                   Enhancement
For which no management decision had been                   0             0             0                0
made by the beginning of the reporting period

Which were issued during the reporting period               1          29,400           0             29,400

Subtotals                                                   1          29,400           0             29,400
For which a management decision was made
                                                            1          29,400           0             29,400
during the reporting period
Dollar value of recommendations agreed to by
                                                            1          29,400           0             29,400
management
         based on proposed management
                                                            1          29,400                         29,400
         action
         based on proposed legislative action               0             0             0                0
Dollar value of recommendations not agreed
                                                            0             0             0                0
to by management
For which no management decision had been                   0             0             0                0
made by the end of the reporting period
For which no management decision was made
                                                            0             0             0                0
within 6 months of issuance
A recommendation that funds be put to better use denotes that funds could be used more efficiently if management
took actions to implement and complete the recommendation, including the following: (1) reduction in outlays, (2) de-
obligations of funds from programs or operations, (3) costs not incurred by implementing recommended
improvements related to operations, (4) avoidance of unnecessary expenditures noted in pre-award review of contract
agreements, (5) any other savings that are specifically identified, or (6) enhancements to revenues.




Previously Issued Audit Reports Pending Management Decisions (Over 6 Months)
As of March 31, 2006 (Dollars in Thousands)

There are no previously issued audit reports pending management decisions for this
reporting period.



Significant Revised Management Decisions
October 1, 2005, through March 31, 2006

There were no significant revised management decisions during the period.




32                Treasury Office of Inspector General Semiannual Report – March 2006
                          S TATISTICAL S UMMARY

Significant Disagreed Management Decisions
October 1, 2005, through March 31, 2006

There were no management decisions this period with which the IG was in disagreement.




            Treasury Office of Inspector General Semiannual Report – March 2006     33
                 REFERENCE TO THE INSPECTOR GENERAL ACT




        Reference                                      Requirement                             Page
     Section 4(a)(2)      Review of legislation and regulations                                 24
     Section 5(a)(1)      Significant problems, abuses, and deficiencies                       5-20
     Section 5(a)(2)      Recommendations with respect to significant problems, abuses, and    5-20
                          deficiencies
     Section 5(a)(3)      Significant unimplemented recommendations described in previous      26-28
                          semi-annual reports
     Section   5(a)(4)    Matters referred to prosecutive authorities                           25
     Section   5(a)(5)    Summary of instances where information was refused                    28
     Section   5(a)(6)    List of audit reports                                                29-31
     Section   5(a)(7)    Summary of significant reports                                       5-15
     Section   5(a)(8)    Audit reports with questioned costs                                   31
     Section   5(a)(9)    Recommendations that funds be put to better use                       32
     Section   5(a)(10)   Summary of audit reports issued before the beginning of the
                                                                                                32
                          reporting period for which no management decision has been made
     Section 5(a)(11)     Significant revised management decisions made during the reporting    32
                          period
     Section 5(a)(12)     Management decisions with which the IG is in disagreement            33
     Section 5(a)(13)     Instances of unresolved FFMIA noncompliance                           8
     Section 5(d)         Report to Secretary of particularly serious or flagrant problems,    N/A
                          abuses, or deficiencies
     Section 6(b)(2)      Report to Secretary when information or assistance is unreasonably   N/A
                          refused or not provided




34                Treasury Office of Inspector General Semiannual Report – March 2006
                                        A CRONYMS


Bearing Point               Bearing Point, Inc.
BEP                         Bureau of Engraving and Printing
Board                       IGATI Curriculum Review Board
BOA                         Bank of America
BPD                         Bureau of the Public Debt
BSA                         Bank Secrecy Act
CDFI Fund                   Community Development Financial Institutions Fund
CFC                         Combined Federal Campaign
CIO                         Chief Information Officer
DC                          District of Columbia
DO                          Departmental Offices
DOJ                         U.S. Department of Justice
DOL                         Department of Labor
E&Y                         Ernst & Young
ECIE                        Executive Council on Integrity and Efficiency
EIC                         Examiner-in-Charge
ESF                         Exchange Stabilization Fund
FBI                         Federal Bureau of Investigation
FECA                        Federal Employees’ Compensation Act
FEMA                        Federal Emergency Management Agency
FFB                         Federal Financing Bank
FFMIA                       Federal Financial Management Improvement Act of 1996
FinCEN                      Financial Crimes Enforcement Network
FMS                         Financial Management Service
FTE                         Full-time Equivalent
GAAP                        Generally Accepted Accounting Principles
GAO                         U.S. Government Accountability Officer
GMRA                        Government Management Reform Act of 1994
GSA                         General Services Administration
GSE                         Government Sponsored Enterprises
IG                          Inspector General
IGATI                       Inspectors General Auditor Training Institute
IPA                         Independent Public Accountant
IRS                         Internal Revenue Service
IRS-CI                      IRS Criminal Investigation
LOU                         Limited Official Use
Mint                        U.S. Mint
MSB                         Money Service Business
PwC                         Pricewaterhouse Coopers, LLP
OA                          Office of Audit
OCC                         Office of the Comptroller of the Currency
OFAC                        Office of Foreign Assets Control
OI                          Office of Investigations
OIA                         Office of Intelligence and Analysis
OIG                         Office of Inspector General


                Treasury Office of Inspector General Semiannual Report – March 2006   35
                                   A CRONYMS

OMB                     Office of Management and Budget
OPM                     Office of Personnel Management
OTA                     Office of Technical Assistance
OTS                     Office of Thrift Supervision
PCIE                    President’s Council on Integrity and Efficiency
PKI                     Public Key Infrastructure
SAR                     Suspicious Activity Report
SIGIR                   Special Inspector General for Iraq Reconstruction
TCE                     Treasury Communications Enterprise
TCS                     Treasury Communications System
TEOAF                   Treasury Executive Office for Asset Forfeiture
TFF                     Treasury Forfeiture Fund
TFFC                    Office of Terrorist Financing and Financial Crime
TFI                     Office of Terrorism and Financial Intelligence
TFMB                    Trust Fund Management Branch, TFMB
TIGTA                   Treasury Inspector General for Tax Administration
Treasury                Department of the Treasury
TTB                     Alcohol and Tobacco Tax and Trade Bureau
USAO                    United States Attorney’s Office
U.S.C.                  United States Code
WCF                     Western Currency Facility, BEP




36         Treasury Office of Inspector General Semiannual Report – March 2006
During February 2006, Secretary of the Treasury Snow bestowed the Distinguished Service
 Award, Treasury’s third highest honor, to William H. Pugh, Deputy Assistant Inspector
 General for Financial Management and Information Technology Audit. Reprinted on this
     page, Mr. Pugh’s posthumous Award recognized his continuous and distinctive
    accomplishment and leadership evidencing the highest standards to public service.
 contact us

Headquarters
Office of Inspector General
1500 Pennsylvania Avenue, N.W.,
Room 4436
Washington, D.C. 20220
Phone: (202) 622-1090; Fax: (202) 622-2151

Office of Audit
740 15th Street, N.W., Suite 600
Washington, D.C. 20220
Phone: (202) 927-5400; Fax: (202) 927-5379

Office of Investigations
740 15th Street, N.W., Suite 500
Washington, D.C. 20220
Phone: (202) 927-5260; Fax: (202) 927-5421

Office of Counsel
740 15th Street, N.W., Suite 510
Washington, D.C. 20220
Phone: (202) 927-0650; Fax: (202) 927-5418

Office of Management
740 15th Street, N.W., Suite 510
Washington, D.C. 20220
Phone: (202) 927-5200; Fax: (202) 927-6492

Eastern Field Audit Office
408 Atlantic Avenue, Room 330
Boston, Massachusetts 02110-3350
Phone: (617) 223-8640; Fax (617) 223-8651




                                             Treasury OIG Hotline
                                             Call Toll Free: 1.800.359.3898

                                             Treasury OIG Web Page

                                             OIG reports and other information are now
                                             available via the Internet. The address is
                                             http://www.treas.gov/offices/inspector-general
